/"~
                                                                                     Office of Inspector General
         DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Audit Services


l,\~~E                                                                               Region VU
                                                                                     60 I East 12th Street
     July 28, 2009                                                                   Room 0429
                                                                                     Kansas City, Missouri 64106

     Report Number: A-07-08-00266

     Gloria M. Lebron, Esq.

     Medicare Program Vice President

     Triple-S, Inc.

     P.O. Box 71391
     San Juan, Puerto Rico 00936-1391

     Dear Ms. Lebron:

     Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
     General (OIG), final report entitled "Review of the Qualified Pension Plan at Triple-S, Inc., for
     the Period January 1, 1986, Through January 1,2007." We will forward a copy of this report to
     the HHS action official noted on the following page for review and any action deemed necessary.

     The HHS action official will make final determination as to actions taken on all matters reported.
     We request that you respond to this official within 30 days from the date of this letter. Your
     response should present any comments or additional information that you believe may have a
     bearing on the final determination.

     Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
     available to the public to the extent that information in the report is not subject to exemptions in
     the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

     If you have any questions or comments about this report, please do not hesitate to call me at
     (816) 426-3591, or your staff may contact Jenenne Tambke, Audit Manager, at (573) 893-8338,
     extension 21, or through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number
     A-07-08-00266 in all correspondence.


                                                           Sincerely,



                                                           Patrick 1. Cogley
                                                           Regional Inspector General
                                                            for Audit Services


     Enclosure
Page 2 – Gloria M. Lebrón, Esq.


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF THE QUALIFIED
  PENSION PLAN AT TRIPLE-S,
    INC., FOR THE PERIOD
  JANUARY 1, 1986, THROUGH
      JANUARY 1, 2007




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-08-00266
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Triple-S, Inc., and Medicare

Triple-S, Inc. (Triple-S), has administered Medicare Part B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) since 1966.

Triple-S sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s
defined/predefined retirement benefit.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation, Cost Accounting Standards
(CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether Triple-S complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

       •   identifying the Medicare segment asset base as of January 1, 1986, and

       •   updating the Medicare segment’s assets from January 1, 1986, to January 1, 2007.

SUMMARY OF FINDINGS

Triple-S correctly calculated the initial allocation of the Medicare segment assets; however, it did
not always comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements while updating the Medicare segment assets from January 1, 1986, to January 1,
2007. As a result, Triple-S overstated the Medicare segment assets by $68,572.

RECOMMENDATION

We recommend that Triple-S decrease its Medicare segment assets as of January 1, 2007, by
$68,572 and recognize $2,084,729 as the Medicare segment assets.


                                                 i
AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Triple-S did not address our findings or
recommendation. Therefore, we maintain that Triple-S should decrease its Medicare segment
assets as of January 1, 2007, by $68,572 and recognize $2,084,729 as the Medicare segment
assets.

Triple-S’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Triple-S, Inc., and Medicare .................................................................................1
              Federal Requirements ...........................................................................................1
              Pension Segmentation...........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................1
               Objective ...............................................................................................................1
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATION................................................................................3

          MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986 ...3

          UPDATE OF MEDICARE SEGMENT ASSETS ...........................................................4
              Federal Requirements ...........................................................................................4
              Contributions and Prepayment Credits Overstated...............................................4
              Benefit Payments Understated..............................................................................4
              Net Transfers Overstated ......................................................................................4
              Earnings and Expenses Overstated .......................................................................5

          RECOMMENDATION ....................................................................................................5

          AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE....6

APPENDIXES

          A – TRIPLE-S, INC., STATEMENT OF MARKET VALUE OF PENSION ASSETS
              FOR THE PERIOD JANUARY 1, 1986, TO JANUARY 1, 2007

          B – AUDITEE COMMENTS




                                                                    iii
              Glossary of Abbreviations and Acronyms

CAS        Cost Accounting Standards
CMS        Centers for Medicare & Medicaid Services
FAR        Federal Acquisition Regulation
Triple-S   Triple-S, Inc.




                                  iv
                                       INTRODUCTION

BACKGROUND

Triple-S, Inc., and Medicare

Triple-S, Inc. (Triple-S), has administered Medicare Part B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) since 1966.

Triple-S sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s benefit as
defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Triple-S complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:




                                                 1
        •     identifying the Medicare segment asset base as of January 1, 1986, and

        •     updating the Medicare segment’s assets from January 1, 1986, to January 1, 2007.

Scope

We reviewed Triple-S’s initial allocation of the Medicare segment assets, and update of the
Medicare segment’s assets from January 1, 1986, to January 1, 2007.

Achieving our objectives did not require us to review Triple-S’s overall internal control
structure. However, we reviewed controls relating to the initial allocation of the Medicare
segment assets, the identification of the Medicare segment, and the update of the Medicare
segment’s assets.

We performed fieldwork at Triple-S’s office in San Juan, Puerto Rico, during March and April
2008.

Methodology

To accomplish our objective, we did the following:

   •        We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •        We reviewed the information provided by Triple-S’s actuarial consulting firm, which
            included the pension plan’s assets, liabilities, normal costs, contributions, benefit
            payments, investment earnings, and administrative expenses. We used this information
            to calculate the Medicare segment assets.

   •        We obtained and reviewed the pension plan documents, actuarial valuation reports, and
            Department of Labor/Internal Revenue Service Form 5500s used in calculating the
            Medicare segment assets.

   •        We interviewed Triple-S staff responsible for identifying the Medicare segment to
            determine whether the segment was properly identified in accordance with the Medicare
            contracts.

   •        We reviewed Triple-S’s accounting records to verify the segment identification and
            benefit payments made to the Medicare segment.

   •        We provided the CMS Office of the Actuary with the actuarial information necessary
            for it to calculate the Medicare segment assets as of January 1, 2007.

   •        We reviewed the CMS actuaries’ methodology and calculations.




                                                  2
We performed this review in conjunction with our audit of Triple-S’s pension costs claimed for
Medicare reimbursement (A-07-08-00268) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATION

Triple-S correctly calculated the initial allocation of the Medicare segment assets as of January 1,
1986; however, it did not always comply with Federal requirements and the Medicare contracts’
pension segmentation requirements while updating the Medicare segment assets from January 1,
1986, to January 1, 2007. As a result, Triple-S overstated the Medicare segment assets by
$68,572.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 1986, to
January 1, 2007, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

                        Table 1: Summary of Audit Adjustments
                                                   Per OIG    Per Triple-S Difference
Medicare Segment Asset Base (Initial Allocation)    $731,952     $731,952         $0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                            3,619,435        3,701,062       (81,627)
  Benefit payments                                                4,433,983        4,397,842       (36,141)
  Transfers                                                      (1,500,555)      (1,644,526)      143,971
  Earnings, net expenses                                          3,667,880        3,762,655       (94,775)
Overstatement of Medicare segment assets                                                          ($68,572)

MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan, as of the later of the first day of the first plan year after December 31,
1980, or the first day of the first pension plan year following the date such Medicare segment
existed. This ratio is known as the asset fraction.




                                                    3
Triple-S correctly calculated an asset fraction of 16.1484 percent as of January 1, 1981, and used
that figure to correctly calculate the initial allocation of the Medicare segment assets totaling
$731,952 as of January 1, 1986.

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contract states that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, unfunded accruals, income, benefit payments, and
expenses. For plan years beginning after March 30, 1995, the CAS requires investment income
and expenses to be allocated among segments based on the ratio of the segment’s average value
of assets to total company average value of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Contributions and Prepayment Credits Overstated

Triple-S overstated contributions and prepayment credits for the Medicare segment by $81,627.
This overstatement occurred because Triple-S’s update methodology did not equitably assign
pension contributions to the Medicare segment. Specifically, the overstatement occurred
primarily because for calendar years 1986 and 1988 through 1990, Triple-S allocated
contributions to the Medicare segment when the assignable pension costs were zero. Because
contributions are allocated upon the assignable pension costs, the contributions assigned to the
Medicare segment for those years were zero. As a result, Triple-S overstated contributions and
prepayment credits for the Medicare segment by $81,627.

Benefit Payments Understated

Triple-S understated benefit payments by $36,141, primarily because it missed one Medicare
segment participant’s benefit payment in 1992. Benefit payments made during the year to
Medicare segment participants should be identified as benefit payments to the Medicare
segment, as required by CAS 413.50(c)(7). This understatement of benefit payments resulted in an
overstatement of the Medicare segment assets.

Net Transfers Overstated

Triple-S overstated transfers out of the Medicare segment by $143,971. Triple-S overstated
transfers out of the Medicare segment primarily because Triple-S incorrectly recorded the 1987
transfer as a transfer out of the Medicare segment, when in fact it was a transfer into the




                                                 4
Medicare segment. This overstatement of the net transfer adjustment resulted in an understatement
of the Medicare segment assets. Table 2 shows the variance between Triple-S’s and our
calculations of audited transfers.

           Table 2: Comparison of Audited Transfers from the Medicare Segment
               Year            Per OIG         Per Triple-S       Difference
               1986                      $0                 $0               $0
               1987                 103,317           (104,478)         207,795
               1988                     937                906               31
               1989                   4,045              5,057           (1,012)
               1990                  11,391              8,047            3,344
               1991                 (18,852)           (19,005)             153
               1992                 (46,997)           (44,618)          (2,379)
               1993                 (26,658)           (27,990)           1,332
               1994                (359,123)          (285,824)         (73,299)
               1995                 (33,015)           (32,335)            (680)
               1996                (113,637)          (115,026)           1,389
               1997                 (38,581)           (38,581)               0
               1998                 (35,272)           (35,272)               0
               1999                 (48,434)           (48,434)               0
               2000                (105,745)          (105,745)               0
               2001                     461                461                0
               2002                (359,359)          (359,359)               0
               2003                 (51,927)           (51,927)               0
               2004                (322,020)          (322,020)               0
               2005                 (72,059)           (72,059)               0
               2006                  10,973              3,676            7,297
              Total             ($1,500,555)      ($1,644,526)         $143,971

Earnings and Expenses Overstated

Triple-S overstated investment earnings, less administrative expenses, by $94,775 for the
Medicare segment because it used incorrect contribution and prepayment credit amounts, benefit
payment amounts, and transfer adjustment amounts (all discussed above) to develop the
Medicare asset base. In our audited update, we reallocated earnings and expenses, based on the
applicable CAS requirements, and determined that Triple-S overstated the Medicare segment
assets by $94,775.

RECOMMENDATION

We recommend that Triple-S decrease its Medicare segment assets as of January 1, 2007, by
$68,572 and recognize $2,084,729 as the Medicare segment assets.




                                                5
AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Triple-S did not address our findings or
recommendation. Triple-S provided a single set of written comments for both this report and its
companion report, “Review of Pension Costs Claimed for Medicare Reimbursement by Triple-S,
Inc., for Fiscal Years 1988 Through 2006” (A-07-08-00268). Triple-S’s written comments
focused entirely on the pension costs claimed report. Therefore, Triple-S should decrease its
Medicare segment assets as of January 1, 2007, by $68,572 and recognize $2,084,729 as the
Medicare segment assets.

Triple-S’s comments are included in their entirety as Appendix B.




                                               6
APPENDIXES
                                        Triple-S, Inc.,
                         Statement of Market Value of Pension Assets        APPENDIX A
                                        For the Period                        Page 1 of 7
                              January 1, 1986, to January 1, 2007


           Description               Total Company      "Other" Segment       Medicare

Assets January 1, 1986        1/          $4,532,659          $3,800,707          $731,952

Prepayment Credit                                  0                   0
Contributions                 2/             386,066             386,066                 0
Earnings                      3/             723,776             606,898           116,878
Benefit Payments              4/             (59,363)            (59,363)                0
Expenses                      5/             (32,060)            (26,883)           (5,177)
Participant Transfers         6/                   0                   0                 0

Assets January 1, 1987                     5,551,078           4,707,425           843,653

Prepayment Credit             7/                   0              (1,836)            1,836
Contribution                                 740,661             673,755            66,906
Earnings                                     205,607             174,291            31,316
Benefit Payments                             (45,880)            (45,880)                0
Expenses                                     (39,252)            (33,274)           (5,978)
Participant Transfers                              0            (103,317)          103,317

Assets January 1, 1988                     6,412,214           5,371,164          1,041,050

Prepayment Credit                                  0                   0                 0
Contribution                                       0                   0                 0
Earnings                                     886,190             742,313           143,877
Benefit Payments                             (36,366)            (36,366)                0
Expenses                                     (45,363)            (37,998)           (7,365)
Participant Transfers                              0                (937)              937

Assets January 1, 1989                     7,216,675           6,038,176          1,178,499

Prepayment Credit                                  0                   0                 0
Contributions                                419,947             419,947                 0
Earnings                                   1,656,953           1,386,369           270,584
Benefit Payments                            (182,288)           (124,712)          (57,576)
Expenses                                     (54,147)            (45,305)           (8,842)
Participant Transfers                              0              (4,045)            4,045

Assets January 1, 1990                    $9,057,140          $7,670,430         $1,386,710
                                                                APPENDIX A
                                                                  Page 2 of 7

           Description   Total Company      "Other" Segment       Medicare

Assets January 1, 1990        $9,057,140          $7,670,430         $1,386,710

Prepayment Credit                      0                   0                  0
Contribution                     358,633             358,633                  0
Earnings                        (232,301)           (196,734)           (35,567)
Benefit Payments                (584,484)           (495,728)           (88,756)
Expenses                         (58,294)            (49,369)            (8,925)
Participant Transfers                  0             (11,391)            11,391

Assets January 1, 1991         8,540,694           7,275,841          1,264,853

Prepayment Credit                      0                   0                 0
Contribution                   1,036,198             891,219           144,979
Earnings                       1,884,367           1,605,297           279,070
Benefit Payments                (685,258)           (685,258)                0
Expenses                         (52,244)            (44,507)           (7,737)
Participant Transfers                  0              18,852           (18,852)

Assets January 1, 1992        10,723,757           9,061,444          1,662,313

Prepayment Credit                      0             (14,268)           14,268
Contributions                  1,098,038             989,041           108,997
Earnings                         429,273             362,159            67,114
Benefit Payments              (1,170,185)         (1,126,017)          (44,168)
Expenses                         (55,140)            (46,519)           (8,621)
Participant Transfers                  0              46,997           (46,997)

Assets January 1, 1993        11,025,743           9,272,837          1,752,906

Prepayment Credit                      0             (32,696)           32,696
Contribution                   1,308,605           1,189,530           119,075
Earnings                       1,153,204             966,444           186,760
Benefit Payments                (189,173)           (189,173)                0
Expenses                         (80,456)            (67,426)          (13,030)
Participant Transfers                  0              26,658           (26,658)

Assets January 1, 1994       $13,217,923         $11,166,174         $2,051,749
                                                                APPENDIX A
                                                                  Page 3 of 7

           Description   Total Company      "Other" Segment       Medicare

Assets January 1, 1994       $13,217,923         $11,166,174         $2,051,749

Prepayment Credit                      0             (50,087)            50,087
Contribution                   1,691,340           1,552,897            138,443
Earnings                          84,691              71,224             13,467
Benefit Payments                (520,818)           (518,250)            (2,568)
Expenses                         (68,400)            (57,523)           (10,877)
Participant Transfers                  0             359,123           (359,123)

Assets January 1, 1995        14,404,736          12,523,558          1,881,178

Prepayment Credit                      0             (35,670)           35,670
Contribution                   1,576,278           1,536,104            40,174
Earnings                       3,905,159           3,385,497           519,662
Benefit Payments                (314,343)           (310,802)           (3,541)
Expenses                         (70,483)            (61,104)           (9,379)
Participant Transfers                  0              33,015           (33,015)

Assets January 1, 1996        19,501,347          17,070,598          2,430,749

Prepayment Credit                      0             (33,153)            33,153
Contribution                   1,479,138           1,457,208             21,930
Earnings                       3,086,261           2,690,645            395,616
Benefit Payments                (996,233)           (996,233)                 0
Expenses                        (111,600)            (97,294)           (14,306)
Participant Transfers                  0             113,637           (113,637)

Assets January 1, 1997        22,958,913          20,205,408          2,753,505

Prepayment Credit                      0             (81,043)           81,043
Contribution                   3,098,039           2,984,557           113,482
Earnings                       4,748,655           4,167,180           581,475
Benefit Payments                (948,895)           (856,833)          (92,062)
Expenses                        (129,198)           (113,378)          (15,820)
Participant Transfers                  0              38,581           (38,581)

Assets January 1, 1998       $29,727,514         $26,344,472         $3,383,042
                                                                APPENDIX A
                                                                  Page 4 of 7

           Description   Total Company      "Other" Segment       Medicare

Assets January 1, 1998       $29,727,514         $26,344,472         $3,383,042

Prepayment Credit                      0                   0                  0
Contribution                     540,000             540,000                  0
Earnings                       4,618,689           4,091,890            526,799
Benefit Payments              (1,586,739)         (1,445,991)          (140,748)
Expenses                        (182,652)           (161,819)           (20,833)
Participant Transfers                  0              35,272            (35,272)

Assets January 1, 1999        33,116,812          29,403,824          3,712,988

Prepayment Credit                      0                   0                  0
Contribution                   2,574,322           2,574,322                  0
Earnings                       5,451,136           4,853,691            597,445
Benefit Payments              (1,462,983)         (1,152,299)          (310,684)
Expenses                        (173,400)           (154,395)           (19,005)
Participant Transfers                  0              48,434            (48,434)

Assets January 1, 2000        39,505,887          35,573,577          3,932,310

Prepayment Credit                      0                   0                  0
Contribution                   1,145,537           1,145,537                  0
Earnings                      (1,629,953)         (1,462,637)          (167,316)
Benefit Payments              (2,574,527)         (2,574,527)                 0
Expenses                        (269,365)           (241,714)           (27,651)
Participant Transfers                  0             105,745           (105,745)

Assets January 1, 2001        36,177,579          32,545,981          3,631,598

Prepayment Credit                      0                   0                  0
Contribution                   6,212,972           6,212,972                  0
Earnings                      (1,742,211)         (1,553,678)          (188,533)
Benefit Payments              (9,073,493)         (8,709,939)          (363,554)
Expenses                        (204,902)           (182,729)           (22,173)
Participant Transfers                  0                (461)               461

Assets January 1, 2002       $31,369,945         $28,312,146         $3,057,799
                                                                APPENDIX A
                                                                  Page 5 of 7

           Description   Total Company      "Other" Segment       Medicare

Assets January 1, 2002       $31,369,945         $28,312,146         $3,057,799

Prepayment Credit                      0            (263,557)           263,557
Contribution                  11,499,754          11,499,754                  0
Earnings                      (2,381,771)         (2,123,120)          (258,651)
Benefit Payments              (6,081,332)         (5,591,523)          (489,809)
Expenses                        (131,516)           (117,234)           (14,282)
Participant Transfers                  0             359,359           (359,359)

Assets January 1, 2003        34,275,080          32,075,825          2,199,255

Prepayment Credit                      0            (479,893)           479,893
Contribution                   9,531,000           9,531,000                  0
Earnings                       5,685,176           5,347,368            337,808
Benefit Payments             (10,633,924)         (8,725,448)        (1,908,476)
Expenses                        (184,373)           (173,418)           (10,955)
Participant Transfers                  0              51,927            (51,927)

Assets January 1, 2004        38,672,959          37,627,361          1,045,598

Prepayment Credit                      0            (553,511)           553,511
Contribution                  13,221,000          13,221,000                  0
Earnings                       3,968,680           3,803,859            164,821
Benefit Payments              (4,265,616)         (4,149,021)          (116,595)
Expenses                        (206,690)           (198,106)            (8,584)
Participant Transfers                  0             322,020           (322,020)

Assets January 1, 2005        51,390,333          50,073,602          1,316,731

Prepayment Credit                      0            (644,480)           644,480
Contribution                   8,000,000           8,000,000                  0
Earnings                       3,444,788           3,335,211            109,577
Benefit Payments              (5,105,895)         (4,290,449)          (815,446)
Expenses                        (228,545)           (221,275)            (7,270)
Participant Transfers                  0              72,059            (72,059)

Assets January 1, 2006        57,500,681          56,324,668          1,176,013
                                                                                        APPENDIX A
                                                                                          Page 6 of 7

             Description                    Total Company        "Other" Segment          Medicare

  Assets January 1, 2006                          57,500,681            56,324,668             1,176,013

  Prepayment Credit                                        0              (675,255)              675,255
  Contribution                                     5,000,000             5,000,000                     0
  Earnings                                         6,908,891             6,677,158               231,733
  Benefit Payments                                (4,613,845)           (4,613,845)                    0
  Expenses                                          (275,616)             (266,371)               (9,245)
  Participant Transfers                                    0               (10,973)               10,973

  Assets January 1, 2007                         $64,520,111           $62,435,382            $2,084,729
  Per Triple-S                      8/           $64,520,111           $62,366,810            $2,153,301
  Asset Variance                    9/                    $0              ($68,572)              $68,572

  FOOTNOTES

1/ We calculated the Medicare segment assets based upon our computed asset fraction (16.1484 percent).
   We computed the asset fraction as explained in the Findings section of the report. The amounts shown
   for the "Other" segment represent the difference between the Total Company and the Medicare segment.
   All pension assets are shown at market value.

2/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department
   of Labor/Internal Revenue Service Form 5500s. We allocated Total Company contributions to the
   Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
   Company funding target. Contributions in excess of the funding targets were treated as prepayment
   credits and accounted for in the "Other" segment until needed to fund pension costs in the future.

3/ We obtained investment earnings from actuarial valuation reports. We allocated investment earnings
   based on the market value of Medicare assets at the beginning of the plan year after adjustments for
   prepayment credits and participant transfers. For years starting with 1996, we allocated investment
   earnings based on the ratio of the segment’s weighted average value (WAV) of assets to total company
   WAV of assets as required by the Cost Accounting Standards (CAS).

4/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We
   obtained the benefit payments from documents provided by Triple-S.

5/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings as
   required by the CAS.
                                                                                            APPENDIX A
                                                                                              Page 7 of 7

6/ We identified participant transfers between segments based on the participant data files provided by
   Triple-S’s actuarial consulting firm. Our transfer adjustment considered each participant’s actuarial
   liability and the funding level of the segment from which the participant transferred. For transfers that
   occurred prior to the 1996 plan year, asset transfers reflected the funding level of the segment from which
   the participant transferred, based on the actuarial liability and the asset value used for cost purposes. If
   the funding level was greater than one, we transferred assets equal to the participant’s liability. For plan
   years starting with 1996, asset transfers were equal to the actuarial liability determined under the accrued
   benefit cost method in accordance with the CAS.

7/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to
   future funding requirements before current year contributions. Prepayment credits are maintained in the
   "Other" segment and transferred to the Medicare segment as needed to cover funding requirements.

8/ We obtained the asset amounts as of January 1, 2007, from the actuarial valuation report prepared by
   Triple-S’s actuarial consulting firm.

9/ The asset variance represents the difference between our calculation of Medicare segment assets and
   Triple-S’s calculation of the Medicare segment assets.
APPENDIX B
  Page 1 of 3
APPENDIX B
  Page 2 of 3
APPENDIX B
  Page 3 of 3
